APPENDIX TABLE OF CONTENTS
Appendix A
Appellate Division Order Only Inform­
ation Available to Appellant on the Web
as No Service from Appeal Court Was
Made................................................................... la
Order of the Appellate Division of the
Supreme Court of New York, First Depart­
ment (October 30, 2018)................................... 2a
Appendix B
Letter to Head Clerk of New York Appeal
Court, First Department Describing
Corruption Encountered in the Process
of Appealing..................................................... 4a
Letter to Head Clerk of New York Appeal
Court, First Department Describing Corrup­
tion Encountered in the Process of Appealing
(February 5, 2019)............................................. 5a
Appendix C
Motion To Reargue Front New York
Supreme Court as the Case Was Removed
To Federal Court and No Service Was
Made Making the Default Judgement
Illegal in Multiple Ways.............................. 17a
Motion To Reargue Front New York Supreme
Court as the Case Was Removed To Federal
Court and No Service Was Made Making the
Default Judgement Illegal in Multiple Ways
(June 28, 2018)................................................. 18a

Appendix D
Affidavit in Support

20a

Affidavit in Support
(June 27, 2018)..........

21a

Appendix E
Notice of Removal To Federal Court

24a

Notice of Removal To Federal Court
(May 12, 2018)........................................

25a

Appendix F
Illegal Dismissal of the Appeal for No
Reason but Collusion and Breach in Due
Process Despite Removal and Lack of
Service.............................................................. 32a
Illegal Dismissal of the Appeal for No Reason
but Collusion and Breach in Due Process
Despite Removal and Lack of Service
(February 7, 2019)............................................ 33a

App.la

APPENDIX A
Appellate Division Order
Only Information Available to Appellant on the
Web as No Service from Appeal Court Was Made

App.2a
ORDER OF THE APPELLATE DIVISION OF
THE SUPREME COURT OF NEW YORK,
FIRST DEPARTMENT
(OCTOBER 30, 2018)
APPELLATE DIVISION OF THE SUPREME
COURT OF NEW YORK, FIRST DEPARTMENT
PHILIPPE BUHANNIC and PATRICK BUHANNIC,
individually and derivatively on behalf of trading of
TRADINGSCREEN INC.,
Plain tiffs-Appellan ts,
v.
TRADINGSCREEN, INC.; PIERRE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI;
ROBERT TRUDEAU; TCV VI, L.P., and
TCV MEMBER FUND, L.P.,
Defendan ts-Responden ts.
Index No. 653624/16
Motion No: M-4977, M-4860 Slip Opinion No: 2018 NYSlipOp 87326(U)
Before: Hon. David FRIEDMAN, Justice Presiding,
Rosalyn H. RICHTER, Marcy L. KAHN,
Jeffrey K. OING, Peter H. MOULTON, Justices.
An appeal having been taken to this Court from the
order of the Supreme Court, New York County, entered
on or about December 13, 2017, and said appeal having

App.3a
been perfected, And plaintiffs-appellants having moved
for leave to file a supplemental appendix and for a
calendar preference in hearing of the appeal (M-4860),
And defendant-respondent TradingScreen, Inc., having
moved to strike certain those portions of the brief
and appendix that reference non-record material (M4977). Now, upon reading and filing the papers with
respect to the motion, and due deliberation having
been had thereon, It is ordered that the motion by
plaintiffs-appellants is denied (M-4860). The motion
by defendant-respondent is granted to the extent of
deeming the following pages struck from plaintiffs'
appendix: pp.31, 33-37, 99-100, 203-205 and deeming
struck those portions of the appellate brief found at
pp.i, 14 n, 34, 15 and 19, related to the aforementioned
exhibits.

Clerk
Entered: October 30, 2018

App.4a

APPENDIX B
Letter to Head Clerk of New York Appeal Court,
First Department Describing Corruption
Encountered in the Process of Appealing

• \

App.5a

LETTER TO HEAD CLERK OF NEW YORK
APPEAL COURT, FIRST DEPARTMENT
DESCRIBING CORRUPTION ENCOUNTERED
IN THE PROCESS OF APPEALING
(FEBRUARY 5, 2019)
Philippe Buhannic
Aventura 318
Route des creux 100
1936 Verbier Switzerland
VIA Electronic filing
Hon. Susanna Molina Rojas
Clerk of the Court
New York State Supreme Court
Appellate Division-First department
27 Madison Avenue
New York, New York 10010
Re: Buhannic v. Tradingscreen, et al,
Supreme court, New York County
Index No. 653624/2016
Copy:

Department of Justice in Washington/FBI/
Press

Dear Ms. Rojas:
Thanks to have finally answered one of my letters!
I could not believe that the Appeal court could even do
that after 5 letters with no answers!
First it would be nice if your office could keep
track of the real names of the litigants and their real
address. Your clerk office is so demanding, for no
reasons, on the format costing litigants a fortune, for
no purpose other than to favor big law firms, that

App.6a

they should exercise the same amount of care to their
own production. My first name is not “Phillip” but
Philippe and this introduces confusion. The same for
the address I don’t live in “Vebier”, I live in Verbier.
Thanks to note that for the future.
I was also amazed to find when I came in the US
and found this letter in my mailbox of my kids place,
when sending it to Switzerland would have been more
efficient and proper and in line with the rules as I
could have not come to the US for months. It is true
that I am a foreigner, Pro se and I am asking for my
constitutional rights to be exercised. Isn’t it insane?
And on top I would like a clean and efficient court
system? I am being very difficult.
Any way let’s go through the points raised in
your letter as they clearly demonstrate the complete
corruption of your clerk office as well as the refusal
by the Appellate division, first department to offer
due process to the litigants along the Constitution
and also demonstrate the bias, collusion and partiality
of this organization from top to bottom. I have alerted
the organization multiple times now on its major ethical
issues and nothing has been done and not even an
answer has been given to my requests for investigation,
as everybody protects everybody in this corrupt system.
Let’s go through the real story of your points and
not the “make up” story you concocted.
In my first filing your team blocked on purpose
due process for what I discovered after a while was a
collusion with the big law firm Morgan Lewis. Instead
of applying the recommendations for Pro se litigants
of the New York state legislature, the team made sure
to make it as difficult as possible. I had to come back

App.7a
24 times for issues as critical as the format of the
page numbers!

.

I played the game entirely and it cost me a fortune
to redo multiple times (10 copies each time) the printing
to satisfy a bunch of people that are not even able to
use the correct name of the litigants in reverse. I felt
the system was what it was, and I did my best to
comply. However this was not the real issue. I had
made the September timeline and one more appendix
needed to be deposited at the Court house. Having to
take a plane I did ask one of my associate who went
there with a friend to deposit the document for me.
When they came in, they found Dan Ramos the head
clerk in full discussion with the head partner of
Morgan Lewis who was explaining to Dan Ramos how
to find excuses to delay my file. So it was not a simple
“bureaucratic” approach towards us but an orchestrated
delaying of our file through these 24 exhausting
refusals, through outright corruption. Dan Ramos got
paid for it in sports tickets. Our file was postponed
unduly from September to December when I had been
told it was perfect and ready for the September session
by the clerk office.
I did report this fact immediately to you and the
head of the First Department requesting an immediate
investigation on the processes of the clerk office. I
was not even answered. Worst you have all the proofs
available as the clerk office is fully taped and you
could easily just verify my assertions as you have
cameras and recording. I am sure by now you have done
it, you have seen I was correct, and I am sure you have
destroyed the evidence that is compromising. Not
much better that the doctoring of the transcripts in
lower court by Justice Friedman that I have per-

App.8a

sonally experienced. So you decided to do nothing,
but you did inform Dan Ramos the corrupt chief clerk
that he had been reported by me. A good, solid way to
achieve due process as we will see.
I have requested from you an explanation why my
file which was fully accepted by the clerk office for
the September session and I never got an answer from
you for a simple reason. It was through outright
corruption of the clerk office by Morgan Lewis. This
explains why I never got any answer from you.
These measures taken by the Appeal court to block
my file are clearly infringing on my constitutional
rights of due process and in many different ways are
displaying the worse of the state court jurisdiction.
For instance after being unduly delayed for weeks
with 24 coming back to the clerk room organized by
Morgan Lewis with Dan Ramos and making it to
September guaranteed, we got postponed for no reasons
whatsoever to December by Dan Ramos. But the worst
was yet to come. We were told when we were to present
our. oral arguments, as the only Pro se in the room,
that we would have 15 minutes for our oral argument.
This was very important for us as we have been robbed
by the lower court, Justice Friedman in the most illegal
way of our indemnification rights pushing us into Pro
se. It was already very difficult to fit our arguments
in 15 minutes, and we were entitled through due
process to that time. We were one of the last cases
and we were told minutes into it that we will have
only 6 minutes! It was impossible even for a senior
lawyer to retool the work of days in a decent format.
As Pro se even more difficult. We challenged this as
it is our right to have an appeal and be heard. We
were totally ignored in a very demeaning manner. Don’t

App.9a

believe me there is a tape so it is accessible. We were
again here refused due process along our constitutional
rights.
Then the worst of the Appellate court First division
was unleashed on us, in a clear abuse of power and
denial of due process because we had complained on
the treatment inflicted to us by the corrupt clerk
office and chief clerk 'Dan Ramos. We had two more
appeals to file but this time we had a very well
documented model as we had an accepted file and we
did a copy of the file to make sure it was accepted.
The clerk office uses these details of presentation
unduly, to control the files they want and don’t want
through in a clear denial of due process for the litigants,
giving them leverage that they can then sell to big
corrupt law firms like Morgan Lewis. In any case while
being in the US and after making sure the files were
perfect along what we were told in the previous one
in terms of format, I came to file my appeals as it is
my constitutional right even if the NY court system
does not seem to understand preferring the version
where it is their decision. On top NY legislature has
given clear instructions to the justice system to be
helpful to Pro se litigants. Clearly a document the
clerk office has not read. When I went to the counter,
and once again this is all on tape as the clerk office is
recorded and if the clerk office has destroyed this
evidence then it is a criminal act, I had a clerk there
that I tried to reach the attention of.
As soon as Dan Ramos the corrupt chief clerk saw
me, he interposed himself and ask me why I was there.
I told him I was filing two more appeals. He imme­
diately told me “ they are deficient”. He did not touch
them, did not look at them in any way but he is clearly

App.lOa

a “uber’ human being or some kind of a super hero as
he could determine without even looking at them
that they were deficient! A clear case of retribution
for me having told the story of his corruption and a
proven and clear denial of my rights to file an appeal
and a clear breach of the due process protected by the
constitution. I realized that like the last time he was
in the hands of Morgan Lewis and even more so now
that I had told the truth on his collusion and I asked
to talk to someone else. I was told that nobody will
look at them as they were deficient. I did ask for my
constitutional right to file an appeal and Dan Ramos
called the cops on me where he should be the one in
chains and I realized the NY court system was even
more corrupt at the appellate division First depart­
ment that the horrible treatment I has been submitted
to in the supreme court. Two useless body with
incompetent people elected on politics and sold to the
big law firms. That is unfortunately the state of the
NY court system. Then while I was trying to get the
bag where I had stored the 10 copies of my appeal
and the adjunct documents to leave the room, a
stupid requirement in these times of electronic fifing,
costing a fortune to the litigants, to get out of the
building as the tape will show, the cops were called
on me and it was decided to handcuff me when I had
done nothing wrong but to in order to help his buddy
Dan Ramos I guess. They broke my glasses by forcing
me on the wall and just for trying to reach out to my
bag handcuffed me for an hour for no reason while
the corrupt chief clerk paraded. I made my point to
all the clerks telling them that by not doing anything
on this clear denial of justice and due process they
were accomplices. After an hour when I taught to the
police people a few historical facts on Teddy Roosevelt.

App.lla

I was released. This is when I sent you the filing for
processing as the clerk office controlled by a corrupt
chief clerk is unusable by me, and I clearly cannot
any more come to your corrupt clerk office as I have
been marked to be penalized.
I had in the package all the documents that you
are asking now in your letter except the check as I
was going to sign it on site, having no idea what the
fee was. The note of issue and the proof of service were
on the table and I was prohibited by Dan Ramos and the
cop that put me in shackles for no reason to pick them
up. You will find them again as an attachment to this
mail as well as a check for the fees you are requesting.
Concerning the Reproduced record I have organized
with the supreme court for you to have access to the
record, so I don’t need to attach it as an appendix as
it is much to big any way and totally electronic. You
have access to the system. All these demands are frivo­
lous and are just a way to protect your team from
their own failings and corruption but once again I
have addressed on receipt of this letter by you all the
points that you are saying are wrongly deficient and
were deficient because of your team misbehaving
with me and leaving my documents in the clerk room.
Therefore my submission even derailed by your Clerk
office unduly is now complete. I hope this time you
will have the dignity of doing the job you are payed
for by my taxes and finalize the two appeals. Not to
do it would add to the long list of failings on the due
process and the non-respect of my rights under the
US constitution.
Finally I would like to stress that there is nowhere
in your rules that you must collude with big law firms,
and force Pro se litigants to come back endlessly and

App.l2a

to delay their files just because you don’t like them.
Or maybe you can point me to that rule?
By not filing my appeal you are clearly breaching
my constitutional rights to appeal, the due process
organized by the constitution and maybe twenty other
regulations that you are supposed to respect. But
who cares right? And the supposed documents deficien­
cies were all in the clerk office. Did you destroy them?
Nobody in the clerk office looked at them when I was
there, but they were deficient! So the clerk office was
taking their opinion on the filing from Dan Ramos
based on the super powers of the corrupt Dan Ramos
that can see through paper and decide if a filing is
deficient by connecting with it remotely! An amazing
feat, I guess this is why he is the boss. Maybe a quick
crash course in law and due process could make him
a useful individual?
As a conclusion on this point you and the Appellate
division, first department are denying me on of my
constitutionally protected right the right to appeal,
have refused me due process and have organized for
your function to be effectively corrupted and racketed
by big law firm and have refused when alerted to even
investigate the criminal acts committed by your team
for money. You abused your position as the appeal
court to prohibit people with integrity to be able to
question your practices by prohibiting them recourse
and you have been, by doing this, a clear accomplice
of the people that committed these acts.
Let’s move now to the other appeals:
Shiboleth v. Buhannic index no: 650600/2018
I learned at the reception of your letter today
that my appeal had been dismissed by the appellate

App.l3a
court, First division. Or on March 1st, I received abso­
lutely no communication on this at any time. A clear
case of faulty communication by the court. Further how
could this case be dismissed? It is an obvious case. In
another stain of the NY state court justice system
while a notice of removal was in place to Federal court
as the case involved an obvious and complete Diversity,
Judge Perry who had no jurisdiction on the matter as
this was front of Federal court, took a decision for his
“buddy judge” Martin Ritholz now a lawyer at
Shiboleth after being a judge in supreme court for
many years. Another clear case of corruption. It gets
worse. The Defendants are foreign nationals which
explain Diversity and guarantee a treatment by the
Federal court, but Shiboleth totally aware that they
had no points on the merits as they inflated massively
their bill in 15 minutes when they were told they
were fired, and proof exist of that. Went through
forum shopping and called their buddy judge Perry to
get while front of Federal court as the rule on notice
of removal is very clear. The state courts have to stop
immediately acting on the case! Instead they organized
a default judgement completely corrupt as they did not
even, inform the Defendants that they had to appear
in order for the court and the plaintiffs in a total
collusion to construct a default judgement while they
had no jurisdiction. Only in the NY court system you
can see this type of corruption in my experience. It
gets even worse when Shiboleth realized that we could
prove easily that no service was not done to obtain
the faulty default judgment cooked up between two
“buddy judges” judge Perry and former judge Ritholz,
they tried to fake a delivery by FedEx of a sending of
the information, after the facts!. We could prove
easily they were none and we gave all the evidence to

App.l4a

judge Perry who refused to even look at it. So as a
summary there was no case on the NY side as the
basic due process was not respected, the court was
not in charge, and it was a trap fabricated by loser
lawyers at Shiboleth leveraging their connections in
the system through Martin Ritholz the former judge
and his buddies. Worse the NY court had no juris­
diction very clearly at the time of the default judgement
and was supposed to leave the case to Federal court.
On top even in state court the judgement was deficient
as there was no service at all and therefore making the
default judgement invalid! But the Appeal was dis­
missed! Amazing the efficiency of the court with no
notice to us!
Only in NY state court system and Broadway
shows can you see this type of things happening. How
could a case like that be dismissed with all the proofs
given in detail to the appellate division, only through
the corruption of the appeal court First department.
Here we go again. The appellate court First department
had not only no right to dismiss the case but worse
had to render a decision based on the law. Here it
was rendered yet again based on the relationship of
the judges among themselves and the big law firms.
An insult to integrity, intelligence and fairness. We
will bring this to the higher court as it is totally
unacceptable and corrupt. On top the Appellate court
did not even attempt to inform us of their decision! A
great case of transparency.
Once more in this case we have been denied due
process, our constitutional rights have been breached
many times and the law even of NY state has not been
respected. The appeal court is just trying to protect
itself and the lower court from being recognized as

App.l5a

totally corrupt. I was not informed of the decision in
any way to prohibit me to react, the decision is illegal
as it was not filed and accepted properly and there
was absolutely no valid reason for the dismissal but
the complete outright corruption of The Appellate
division, First department and their collusion with
law firms and buddy buddy relationship with former
judges like Martin Ritholz. A complete shame to the
system as the case is undeniable. Period.
I am asking the department of justice and the
NY General attorney office to investigate this case as
it translates very well what is corrupt in the NY court
system and the reasons why this decision was taken
and to reverse it and out it back on schedule imme­
diately. This is due process and not “kitchen meddling”
like this decision.
Buhannic v. Tradingscreen, Inc.
Index No: 65324/2016
On this case we see the entire duplicity of the
corrupt clerk office. On one hand they refused to take
my appeal in clear denial of due process and my
constitutional right and then come up with a deficiency
on that is only the cost of filing that I am clearly
unable to calculate. The clerk office could not send
me a letter on it or call me and tell me how much to
pay? I was forced by the attitude of the chief clerk to .
file by FedEx. In this FedEx all the elements claimed
missing were delivered but the payment as I could
not estimate it. The FedEx was delivered to YOU
personally and required a personal signature, so I
guess you decided to lose the documents left in the
clerk room on purpose to protect the system and the
judges I was appealing from. It was your decision.
You are hiding behind rules that you leverage because

(

App.l6a

you have nothing else. This filing was complete when I
sent it but for the costs and you decided to lose
documents on purpose as a clerk office, a serious
offense. Thanks to add back the documents that were
sent attached today again and you will find enclosed
the check for the fees. Finally the access to all the
documents of the case has been arranged with the
lower court. I have attached also a copy of the proof
of service and note of issue which were sent with my
filing to you through FedEx. So please stop pro­
hibiting me to exercise my constitutional rights unduly
and give me a scheduling month as you have made
me waste months already through the clerk office
manipulative approach.
Thanks to work immediately on my appeals and to
put them in the calendar as soon as possible. They
are important items and don’t deserve this unfair
treatment. Thank you to confirm me that everything
is ok and that the appeals are scheduled as soon as
possible.
Respectfully

/s/ Philippe Buhannic

App.l7a

APPENDIX C
Motion to Reargue Front New York Supreme
Court as the Case Was Removed to Federal
Court and No Service Was Made Making the
Default Judgement Illegal in Multiple Ways

App.l8a
MOTION TO REARGUE FRONT NEW YORK
SUPREME COURT AS THE CASE WAS REMOVED
TO FEDERAL COURT AND NO SERVICE WAS
MADE MAKING THE DEFAULT JUDGEMENT
ILLEGAL IN MULTIPLE WAYS
(JUNE 28, 2018)
IN THE SUPREME COURT STATE OF NEW YORK
SHIBOLETH LLP,
Plaintiffs,
v.
PHILIPPE BUHANNIC and PATRICK BUHANNIC
Defendants.
Index No. 650600/2018
PLEASE TAKE NOTICE that upon the attached
affidavit(s) of Philippe Buhannic sworn to on June 28th,
2018. The Exhibits attached to the affidavit(s), and upon
all proceedings in this case to date, the defendants
will move this Court, at 9:30A.M. on the 17 day of July,
2018 at Courthouse, 60 Center Street, New York,
New York, in the Motion Submission part Courtroom,
Room 130, for an order, Pursuant to the Civil Practice
Law and Rules (CPLR), granting the following relief
to the Movant(s):
Motion to Reargue As the Service Was Not Done,
the Plaintiff Were the Only One There and the Case

App.l9a

Falling Clearly Because of the Diversity Rule In the
Federal Court. The Supreme Court is not the Proper
Jurisdiction. The plaintiffs knew that and made Sure
We Were not served properly to the Extract from the
Court this Judgment and for such other and further
relief as this Court may deem just and proper.

Clerk

App.20a

APPENDIX D
Affidavit In Support

App.21a

AFFIDAVIT IN SUPPORT
(JUNE 27, 2018)
SUPREME COURT OF THE STATE OF
NEW YORK COUNTY OF NEW YORK

SHIBOLETH LLP,
Plaintiffs,
v.
PHILIPPE BUHANNIC and PATRICK BUHANNIC,
Defendants.
Index No. 650600/2018
Philippe Buhannic, being duly sworn, deposes and
says:
1. I am defendant in this matter. I make this
affidavit in support of this motion for an order [Describe
what you are asking the Court to do. This relief must
also be stated in the Notice of Motion or Proposed Order
to Show Cause.] Motion to Reargue as being foreigners
we were not served properly, we were removing this
case to move it to Federal Court where it belong and
waiting for the Federal Judge to Answer our last
Motion.
2. I believe the Court should grant this motion
because [Explain why you should be granted what you
are requesting. Attach, identify, and explain any Exhib­
its (documents) you wish to present to the court in

App.22a

support of your position. Add more pages if needed.]
The Court has not heard the defendants at all Further
Shiboleth knows this case should be because of
Diversity Front of Federal Court and we are on our
way to have it Removed from State Court, Shiboleth
has bed, cheated and manipulated their Invoices, were
will about it further Shiboleth purposely manipulated
their service to play Jurisdiction arbitrage and to make
sure they would between only one to present their
manipulated Movers as most of the money they claim is
pure invention created after they were heard for
Incompetency Defendant not to hear our side of the
story or the Final Notice of removal decision would
impair logic, Justice and basic construction rights
proper service is on our location in Europe not in NY
as we are non-resident move of these did research
before affidavits also and prohibited on purpose to
defend ourselves through Shiboleth manipulations as
they even we live in Europe waiting for a Visa I Could
not Enter the Country for Months, the breach of
Contract is Fallacious and we were the ones betrayed by
Shiboleth Constant over charging, despite clear
Instruction and their total Incompetency, which should
guarantee in any other business complete Reimburse­
ment ....
3. A prior application has not been made for the
relief now requested, [if you made this application
before in this or any other court, describe where, when,
the result, and why you are making this application
again. Attach copies of previous decision.] Notice of
Removal with Federal Court
WHEREORE, I respectfully request that this
motion be granted, and that I have such other and
further relief as may be just and proper.

App.23a
PLEASE TAKE FURTHER NOTICE, that pursu­
ant to civil Law and Rules 2214(b), you are hereby
required to serve copies of your answering affidavits
on the undersigned no later than the seventh day prior
to the dates set above for submission of this motion,
[For this paragraph to apply, motion papers must be
served by personal delivery no later than 16 days
before the return date.
Sworn to before me this 27th day of June, 2018.
Respectfully Submitted,
/s/ Buhannic
Philippe Buhannic
Aventura 318
Route des Creux 100
1936 Verbier, Switzerland
To: Attorney for Plaintiffs
. Shiboleth LLP
1 Penn Plaza, Suite 2527
New York, NY 10119

App.24a

APPENDIX E
Notice of Removal to Federal Court

App.25a
NOTICE OF REMOVAL TO FEDERAL COURT
(MAY 12, 2018)
UNITED STATES DISTRICT COURT
NEW YORK SOUTHERN DISTRICT
SHIBOLETH LLP,
Petitioners,
v.
PHILIPPE BUHANNIC and PATRICK BUHANNIC
Respondents.
Index No.: 18-cv-2585
(RJS)
Motion to Request an Application of
The Notice of Removal
Philippe Buhannic, being duly sworn, deposes and
says:
1. I was the client of Shiboleth LLP during a
period that went from April 24th, 2017 to October 4th,
2017 as founder and member of the board of directors
of Defendant Trading Screen Inc. (the “Company”) in a
htigation against TCV, Piero Grandi, Pierre Schroeder, Bob Trudeau and Franck Placenti.
2. I made this Notice of Removal in opposition of
Plaintiffs’ motion for an order to pay for inexistent
services pursuant to Rule 11 of the Federal Rules of

App.26a

Civil Procedure as following the very clear diversity
jurisdiction under subsection (b)(3) on the basis of
jurisdiction conferred by section 1332. Being a foreign
citizen, residing in Switzerland and the amount of
the dispute (300,000 USD) being above 75,000 USD,
the only competent court is the Federal Court. The
amount
3. Shiboleth LLC knew perfectly our situation as
a foreigner and non-resident and being a sophisticated
law firm knew that we felt under the diversity excep­
tion. They voluntarily ignored our rights and decided
however to file under the state court as they feel they
have a clear advantage, having a former judge on
their staff. They also leveraged the fact that we are
living outside of the US to not serve us properly. Still
to this day I have not been will not be able to demon­
strate a service to me in Switzerland.
4. We were at the time of the removal renewing
our entry visa in the US and the US consulate in Paris
had our passport for weeks on and we were unable to
enter the US even less to get service or mail (it all
went to our New York address) as still to this day we
have not been able to connect to Pacer the electronic
system, despite hours on the phone, to try to get the
access operational. Therefore, we are asking the Court,
respectfully, to understand that we were unable to get
their communication and therefore were unable to
answer the questions the Court raised. Further when
we did file the Notice of Removal we did it Pro Se
with the help of the Pro Se offices at the Federal and
State court and we did exactly what they required
from us to do in terms of information of the parties
and documents to be delivered. We were told that the
Court could access the State filing and therefore that

App.27a

we did not have to produce a copy to demonstrate the
amount at stake. We have, however, in our last commu­
nication supplied the case information that very clearly
put us under the Diversity rule and it would be
strange for us to be penalized when we have applied
the process we were requested to apply at the best of
our abilities as Pro Se versus an experiences law firm
that has behave disingenuously to start with by pick­
ing the jurisdiction they like versus the appropriate one
along the law.
5. This situation clearly falls under “extraordin­
ary judicial relief and we are invoking “the showing of
exceptional circumstances” as we were unable to enter
the US. There was, and still to this day in fact, no
communication or service to our address in Switz­
erland of the information by Shiboleth LLC who
perfectly knew our foreign origin having been paid
and communicating with us that way for years. As
soon as we were in the US and we discovered the
mail from the court we did answer it very rapidly and
positively to all questions regarding the diversity.
Therefore, it would be quite unfair to allow Shiboleth
that has . . . today at our service address), the amount
at stake is relevant and the other criterions are also
met
6. The fact that Shiboleth voluntarily ignore the
Diversity exception, despite a complete knowledge of
our situation, and not serving us at the place that
they knew we could receive the documents constitutes
clearly a bad faith exception to this proceeding that
this Court has overlooked:
•

(l) A case may not be removed under subsection
(b)(3) on the basis of jurisdiction conferred by
section 1332 more than 1 year after commence-

App.28a

ment of the action, unless the district court finds
that the plaintiff has acted in bad faith in order
to prevent a defendant from removing the
action.
•

(2) If removal of a civil action is sought on the
basis of the jurisdiction conferred by section
1332(a), the sum demanded in good faith in the
initial pleading shall be deemed to be the
amount in controversy, except that—

•

(A) the notice of removal may assert the
amount in controversy if the initial pleading
seeks—

•

(i) nonmonetary relief; or

•

(ii) a money judgment, but the State prac­
tice either does not permit demand for a
specific sum or permits recovery of damages
in excess of the amount demanded; and

•

(B) removal of the action is proper on the basis
of an amount In controversy asserted under
subparagraph (A) if the district court finds,
by the preponderance of the evidence, that the
amount in controversy exceeds the amount
specified in section 1332(a).

•

(3)
(A) If the case stated by the initial pleading
is not removable solely because the amount in
controversy does not exceed the amount
specified in section 1332(a), information rela­
ting to the amount in controversy in the record
of the State proceeding, or in responses to
discovery, shall be treated as an “other paper”
under subsection (b)(3).

App.29a

(B) If the notice of removal is filed more than
1 year after commencement of the action and
the district court finds that the plaintiff delibe­
rately failed to disclose the actual amount in
controversy to prevent removal, that finding
shall be deemed bad faith under paragraph
(1).
•

(d) Notice to Adverse Parties And State
Court.—

•

Promptly after the filing of such notice of
removal of a civil action the defendant or defen­
dants shall give written notice thereof to all
adverse parties and shall file a copy of the
notice with the clerk of such State court, which
shall effect the removal and the State court shall
proceed no further unless and until the case is
remanded.

We are therefore respectfully asking the Court
to look at this fact which is also a point of law to
reconsider its position as a new element, given the
lack of service this removal was clearly done on time.
JURISDICTION AND VENUE
8. The State court does not have jurisdiction on
this action as we are both foreign citizen and non­
resident in the state of New York, that the dispute is
over 75,000 USD as clearly establish by the consti­
tution. This case should be presented front of the
Federal court and not the New York supreme court in
the same manner that our main case should have
been presented in federal court and not at the supreme
court. This was yet another massive mistake of our

App.30a

lawyers at the time, Kasowitz which took this decision
without even informing us or checking the facts.
FACTUAL BACKGROUND
We did hire Shiboleth with a very clear mandate
that was based on a certain number of conditions in
terms of payment and process which were very clear
from the start and it worked reasonably for a little
while. However, Shiboleth decided at one point to go
back on the agreement and to constantly charge in a
way that was foreign to the very clear agreement struck
between the two parties and started to behave like a
rapacious thief in terms of its billing. We will
demonstrate the overcharging and the damage created
to us over a significant period and will also demonstrate
the manipulation of the billing, especially when we
had stopped their services. To add insult to injury
Shiboleth has also failed on every point they attempted
to service us, and we are now picking up the pieces
and trying to repair the damage created to our case
by their fixation on extracting money from us instead
of servicing our needs.
In conclusion, Defendant respectfully requests
that this Court apply the Diversity exception, to
accept the notice of removal previously filed, revised
its denial given the point of law we are providing and
the clear evidence that we can document of the non­
service and the impossibility we had to come to the
US, the US consulate in Paris will testify of this
which clearly constitute exceptional circumstances
and to accept, as it should, this case based on the
diversity and size of the amount at stake.

App.31a
/s/ Philippe Buhannic
Dated: May 12, 2018 New York, NY

App.32a

APPENDIX F
Illegal Dismissal of the Appeal for No Reason
but Collusion and Breach in Due Process Despite
Removal and Lack of Service

App.33a
ILLEGAL DISMISSAL OF THE APPEAL FOR NO
REASON BUT COLLUSION AND BREACH IN
DUE PROCESS DESPITE REMOVAL AND
LACK OF SERVICE
(FEBRUARY 7, 2019)
UNITED STATES DISTRICT COURT
NEW YORK SOUTHERN DISTRICT
SHIBOLETH LLP
Plain tiff-Resp on den t,
v.
PHILIPPE BUHANNIC,
Defendant-Appellant.
and
PATRICK BUHANNIC,
Defendant.
M-5611
Index No. 650600/18
Before: Hon. Rolando T. ACOSTA, Presiding Justice
Judith J. GISCHE Angela M. MAZZARELLI,
Troy K. WEBBER, Jeffrey K. OING, Justices.
Plaintiff-respondent having moved for dismissal
of the appeal taken from the order of the Supreme

App.34a

Court, New York County, entered on or about June 11,
2018,
Now, upon reading and filing the papers with
respect to the motion, and due deliberation having been
had thereon,
It is ordered that the motion is granted and the
appeal is dismissed and stricken from this Court's
calendar.

Entered:
Signature Not legible
Clerk

